Appendix

la

Appendix A
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10089
Non-Argument Calendar

D.C. Dockets No. 1: 18 cv-03817-AT

David Thorpe,
Plaintiff-Appellant
Versus
DEXTER DUMAS, an individual,
GEORGE JENKINS, an individual,
LAUREN BOONE, an individual,
JEFFREY S. CONNELLY, an individual,
FANI WILLIS, an individual, et al.,

Defendants-Appellees.

2a

Appeal from the United States District Court for
the Northern District of Georgia

(September 17, 2019)
Before ED CARNES, Chief Judge, WILLIAM
PRYOR, and GRANT, Circuit Judges.
PER CURIAM:
David Thorpe, a p.cg sg litigant, was indicted in
Georgia state court for armed robbery, aggravated
assault, and battery. More than two years after the
indictment the State dropped all charges against him.
Thorpe filed a 42 U.S.C. 1983 action against a law
enforcement officer, four prosecutors, and a judge, all
of whom were involved in his prosecution. He alleged
they violated his Fourth, Eighth, and Fourteenth
Amendment rights. He also brought state law claims
for malicious prosecution, intentional infliction of
emotional distress, and false imprisonment.
The district court dismissed all of Thorpe's claims
on procedural grounds.
1.
Officer Dexter Dumas arrested Thorpe in
August 2014. Thorpe was later released on bond
under the condition that he wear an ankle monitor.
Eight months after he was released Thorpe asked
Judge Glanville, who was presiding over his
criminal case, to modify his bond and order the
removal of his ankle monitor. Judge Glanville
3a

denied those requests. In March 2016 Thorpe again
requested a
2
bond modification. This time Judge Glanville
approved the removal of Thorpe's ankle monitor. By
then Thorpe had worn the ankle monitor for 586
days. The prosecution dropped the charges against
him in October 2016.
Thorpe filed claims against: Officer Dumas;
George Jenkins. Lauren Boone, and Jeffrey
Connelly, the pi’osecutors who worked on his case;
Deputy District Attorney Fani Willis, the attorney
who supervised the prosecutors: and Judge
Glanville. Thorpe attempted to serve the defendants
through certified mail.
Jenkins. Boone, and Connelly moved to dismiss
Thorpe’s complaint under Fed. R. Civ. P. 12(b)(5) for
insufficient service of process. Officer Dumas filed a
separate Rule 12(b)(5) motion. Willis and Judge
Glanville moved to dismiss the complaint under Rule
12(b)(6) based on prosecutorial and judicial
immunity. The district court granted all three
motions and dismissed Thorpe's claims. Thorpe filed
a motion for reconsideration, which the court denied.
This is Thorpe's appeal. He contends that service
was proper, immunity does not apply, and the
district court wrongly denied his motion for
reconsideration. We address each contention in turn.
11.
Thorpe first challenges the dismissal for
insufficient service of process of his claims against
Dumas and three prosecutors (Jenkins, Boone, and
4a

Connelly). In an appeal from a district court's
judgment granting a Rule 12(b)(5) motion to dismiss
3
foi insufficient service of process, we review de novo
questions of law. Prewitt Enters.. Inc, v. Org. of
Petroleum Exporting Countries. 353 F.3d 916, 920 (1
Ith Cir. 2003). Any findings of fact are reviewed only
for clear error. Id.
A plaintiff must properly serve process for the
court to have personal jurisdiction over the
defendant. Omni Capital Intern. Ltd, v. Rudolf Wolff
&C^Ltd,. 484 U.S. 97, 104 (1987). Rule 4(e) allows
service of process by:
(1) following state law for serving a summons
in an action brought in courts of general
jurisdiction in the state where the district
court is located or where service is made:
or
(2) doing any of the following:
(A)
delivering a copy of the
summons and of the complaint to the
individual personally.
(B)
leaving a copy of each at the
individual's dwelling or usual place of
abode with someone of suitable age and
discretion who resides there; or
(C)
delivering a copy of each to an
agent authorized by appointment or by
law to receive service of process.
Fed. R. Civ. P. 4(e)(1)— (2). Georgia allows service of
process under the same circumstances. See Ga. Code
Ann. 9-11-4.
oa

Thorpe contends that the district court
erred in two ways. First, he argues that he
properly served Dumas, Jenkins. Boone, and
Connelly. Second, he argues that those defendants
waived proper service of process by not addressing
personal jurisdiction in their first answer to his
second amended complaint.
Thorpe attempted to serve Dumas, Jenkins,
Boone, and Connelly through certified mail. The
parties disagree whether he sent the certified mail to
only the
4
defendants themselves or whether he also sent
copies to the defendants' authorized agents. The
distinction makes no difference. Rule 4 does not
authorize service of process through the mail. Nor
does Georgia law.
Rule 4 allows service of process either by
"delivering a copy of the summons and of the
complaint to the individual personally" or by
"delivering a copy of each to an agent authorized by
appointment or by law to receive service of process.”
Fed. R. Civ. P. 4(e)(2). While we have not addressed
in a published opinion whether "delivery" under Rule
4 can be accomplished through certified mail, other
circuits have service by certified mail generally does
not constitute "delivery" under subsections of Rule 4.
See, e.g., Yates v. Baldwin. 633 F.3d 669, 672 (8th
Cir. 2011) (holding that mail does not satisfy delivery
under Rule 40));
Peters v. United States. 9 F.3d
344, 345 (5th Cir. 1993) (holding that certified mail
does not satisfy "delivery" under Rule 4(e)); Green v.
Humphrey Elevator & Truck Co.. 816 F.2d 877, 882
(3d Cir. 1987) (holding mailing alone does not satisfy
6a

I

"delivery" under Rule 40)). Georgia state law also
requires in-person service. Camp v. Coweta County,
625 S.E.2d 759. 761 n.4 (Ga. 2006). So certified mail,
even to an authorized agent, does not satisfy Rule 4's
service requirements.
And contrary to Thorpe's contentions, neither
Dumas, nor Jenkins, nor Boone, nor Connelly
waived service of process. See Pardazi v. Cullman
Med. Ctr.,
o

896 F.2d 1313. 1317 (1 Ith Cir. 1990) (holding that
objections to service of process can be waived if not
addressed in the first responsive motion to the
complaint). In their original motions to dismiss and
their motions to dismiss the first amended complaint
— the defendants' first response to each of Thorpe's
complaints all four of them argued that process was
insufficient. 1 Because Thorpe did not properly serve
Dumas, Jenkins, Boone, or Connelly, we affirm the
dismissal of
Thorpe's claims against them.
111.
Thorpe next challenges the district court’s finding
that Deputy District

1 Thorpe asserts in his reply brief that the district court
should have recognized there were extenuating circumstances
and that he was unable to effectively serve process in time.
Because he failed to make that argument in his opening brief
before this Court, he has forfeited it. Timson v. Sampson. 518
F.3cl 870. 871 (1 Ith Cir. 2008).

7a

Attorney Willis and Judge Glanville were immune
from suit. We review dg novo questions of absolute
immunity. Stevens v. Osuna. 877 F.3d 1293. 1301 (1
Ith Cir.2017). We must accept as true the allegations
of the complaint and any reasonable inference we can
draw from them. Long v. Satz. 181 F.3d 1275. 1278 (1
Ith Cir. 1999).
Thorpe sued Willis and Judge Glanville in their
individual and official capacities. We address the
claims against each defendant in turn. Prosecutors
have absolute immunity from 1983 individual
capacity claims for actions they take in the "initiation
and pursuit of criminal prosecution." Jones v.
Cannon. 174 F.3d 1271. 1281 (1 Ith Cir. 1999). Our
analysis of those actions is functional; we consider
the nature of the function the defendant performed,
not the defendant’s job title. Hart v. Hodges. 587 F.3d
1288, 1294-95 (1 Ith Cir. 2009). Section 1983 provides
prosecutors with absolute immunity for functions
"intimately associated with the judicial phase of the
criminal process," including "refusing to investigate."
Id. at 1295. Willis is entitled to absolute prosecutorial
immunity. Even accepting as true Thorpe's
allegations that Willis "oversaw"' the other attorneys,
"assigned" them to the case, "knew of the charges
against Thorpe, and "failed to act," all of those actions
involve Willis' preparation for trial. Trial preparation
is a prosecutorial function, and Willis has
prosecutorial immunity for it.

8a

B.
Judges have absolute judicial immunity from
damages in individual capacity suits so long as they
were not acting in the "clear absence of all
jurisdiction." Siblev v. Lando. 437 F.3d 1067, 1070
(1 Ith Cir. 2005). We consider four factors to
determine whether a judge is acting within the
scope of his judicial capacity: whether ‘’(1) the act
complained of constituted a normal judicial
function: (2) the
events occurred in the judge's chambers or in open
court: (3) the controversy involved a case pending
before the judge: and (4) the confrontation arose
immediately out of a visit to the judge in his judicial
capacity.” Id..
Thorpe complained that Judge Glanville
wrongfully denied his request to modify the
conditions of his bond. Judge Glanville’s
consideration of Thorpe's request for bond
modification is a normal judicial function. It took
place in the judge’s chambers or in open court.
The request involved a case pending before Judge
Glanville.
And
Thorpe's
claims
arise
immediately out of that interaction.
Judge Glanville's actions thus fall squarely within
judicial immunity.
c.
Thorpe also requested declaratory relief in his
claims against Willis and
Judge Glanville in
their official capacities. While the Eleventh
xAmendment generally prohibits federal courts from

9a

hearing suits brought against state officials-in their
official capacity, there is one exception. Summit Med.
Assocs- P.C. v. Prvor. 180 F.3d 1326. 1336 (1 Ith Cir.
1999). A plaintiff can sue a state officer "seeking
prospective equitable relief to end continuing
violations of law." Icl. (citing Ex parte Young. 209 U.S.
123 (1908)). But a plaintiff may not use Ex parte
Young "to adjudicate the legality of past conduct.’' Id.
At 1337. Thorpe contends that the district court
ignored his claims for declaratory relief in his first
amended complaint: and that because he requested
declaratory relief—
specifically.
a
written
acknowledgement of past wrongs — his claims are
not barred by the Eleventh Amendment. We
disagree. Thorpe is attempting to read judicate the
past conduct of Willis and Judge Glanville. He does
not claim there is any ongoing violation of his
constitutional rights. So Ex parte Young does not

- The Georgia Constitution gives in state courts the
judicial pom er of the state. Ga. Const. Art. VI. 1. And we have
held that, under Georgia law. a prosecutor "exercising [her]
discretion in prosecutorial decisions” is a state official who is
acting on the State's behalf. Owens v. Fulton County. 877
F.2d 917. 951 (1 Ith Cir. 19S9). The Eleventh Amendment
applies both to -Judge Glanville and Willis.

10a

aPply- The district court was correct to dismiss the
claims against Willis and Judge Glanville.

IV.
Finally. Thorpe contends that the district
court was biased against him and wrongly denied
his motion for reconsideration. But a motion for
reconsideration cannot be used to relitigate old
matters. Richardson v. Johnson. 598 F.3d 734, 740
(1 Ith Cir. 2010). Because Thorpe's argument is a
rehash of the reasons, he believes the district court
should not have ruled against him. the denial of his
motion was not an abuse of discretion. Id.
AFFIRMED.

9

11a

Appendix B
Case l:18-cv-03817-AT Document 30 filed 11/08/18
Page 1 of 18
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

DAVID THORPE,
Plaintiff,

v.

DEXTER DUMAS, GEORGE :
CIVIL ACTION NO.
JENKINS, LAUREN BOONE, :
l:18-cv-3817-AT
JEFFREY S. CONNELLY, FANI
WILLIS, and URAL GLANVILLE,
Defendants.
ORDER
This matter is before the Court on the Motions to
Dismiss Plaintiffs

12a

Amended Complaint of Defendants Dexter Dumas.
Judge Ural Glanville, Fani Willis. George Jenkins,
Lauren Boone, and Jeffrey S. Connelly [Docs. 16. 19,
22], Plaintiffs Motion for Clerk's Entry of Default
against Defendants Lauren Boone. Dexter Dumas,
Jeffrey Connelly, and George Jenkins [Doc. 24],
Motion for Leave to File Excess Pages bv Ural
Glanville and Fani Willis [Doc. 18]. Second Motion to
Stay Discovery by Ural Glanville and Fani Willis
[Doc. 20].
Plaintiff, who is pro se. filed a Complaint
pursuant to 28 U.S.C. § 19835 seeking damages for
alleged civil rights violations arising out of his arrest
and Case l:18-cv-03817-AT Document 30 filed
11/08/18 Page 1 of 18 ensuing prosecution in Fulton
County Superior Court. Plaintiff also brings state law
claims of malicious prosecution, intentional infliction
of emotional distress, and false imprisonment. (Am.
Compl.. Doc. 12
93-119.) Plaintiff asserts claims
against the presiding judge. Ural Glanville; the
supervising prosecutor. Fani Willis; prosecutors,
George Jenkins. Lauren Boone, and Jeffrey Connelly;
and a police investigator. Dexter Dumas. Because it
is unclear to the Court whether Plaintiff is suing
these Defendants in their individual and/or official

' Plaintiffs first claim is for a violation of 42.U.S.C. §
1983. However, by its plain terms. Section 1983 does not itself
create any substantive rights, but instead provides a method
for redress for the deprivation of rights established elsewhere
in the Constitution or federal laws. See Barfield v. Brierton.
883 F.2d 923. 934 (11th Cir. 1989) ("Section 1983 alone creates
no substantive rights: rather it provides a remedy for
deprivations of rights established elsewhere in the
Constitution or

13a

capacities, the Court will construe both possibilities
for the purposes of ruling on the Motions to Dismiss.2
I.

Background

Plaintiff alleges the following conduct by Defendants
resulted in violations of certain protections
guaranteed to him by the Fourth. Eighth, and
Fourteenth Amendments to the Federal Constitution,
and constitute malicious prosecution, intentional
infliction
of emotional distress,
and false
imprisonment under state law:
□After the Atlanta Police Department received a
complaint from an alleged victim, Detective
Dumas obtained an arrest warrant for Plaintiff
Thorpe for the capital felony of armed robbery
plus battery. (Am. Compl. TT 12-13.)

federal laws.”) (citing Baker v. McCollan, 443 U.S.
137. 144 n. 3, 99 S. Ct. 2689. 2694 n. 3, 61 L. Ed. 2d
433 (1979)). Therefore, the Court construes Counts
two through four as constitutional claims pursuant to
42 U.S.C. § 1983.2 The Court recognizes that Plaintiff
is appearing pro se. Thus, his complaint is more
leniently construed and "held to less stringent
standards than formal pleadings drafted by lawyers.’’
Erickson v. Pardus, 551 U.S. 89, 94 (2007) (citations
and internal quotation marks omitted): Tannenbaum
v. United States, 148 F.3d 1262. 1263 (11th Cir. 1998).
2
•

Plaintiff Thorpe was arrested on August 2,
2014. (Id. ? 17.) He "made his first appearance
on August 4. 2014 and because of the capital
14a

•

•

•

felony charge, Thorpe was denied bail and
informed that any bond issues had to be heard
by a higher court." (Id.) On August. 9. 2014,
Thorpe was indicted for armed robbery,
aggravated assault, and battery. (Id.)
The Fulton County District Attorney’s Office
"had knowledge and were in possession of
evidence that refuted their fundamentally ,
unfair charges [against Plaintiff Thorpe](Id.
T 19.)
Thorpe and his attorney began
requesting Brady material from Defendant
Jenkins in August of 2014. (Id. T 20.)
Defendants Jenkins. Boone, and Connelly
failed to investigate his case and prosecuted
him without probable cause. (Id. 1]*j 94-95.)
Defendant Jenkins "chose not to address the
requested Brady [sic]
material.” (Id. *[ 21.) Despite knowing “that he
lacked the credible evidence necessary to
secure a conviction against Thorpe, [Defendant
Jenkins] elected to proceed with the
unwarranted prosecution of Thorpe.” (Id. * 22.)
Sometime around September 2014. Defendant
Jenkins "came into the knowledge of
exculpatory evidence which refuted the
probability of the armed robbery [,]”
aggravated assault, and battery allegations
Thorpe faced. (Id. T*[ 25-27.)

15a

•

All three of the prosecutors assigned to his case
continued the prosecution despite havingexculpatory evidence in their possession. (Id.
25-27, 33-36, 40.)
• As a condition of his bond. Thorpe was required
to wear an ankle monitor and report for weekly
supervision. (Id. TT 31, 32.) Judge Glanville
did not rule on Thorpe's request for a bond
modification. (Id. *■; 43-45, 84, 87.) The
requirements of wearing an ankle monitor,
paying the bond company, and reporting to
weekly supervision was excessive. (Id. *j 88.)
• Judge Glanville recused himself from Mr.
Thorpe’s case. (Id. T 51)
• Deputy Willis, as the supervising attorney in
the prosecutor s office is responsible for
Defendant Jenkins. Boone, and Connelly’s
failure to investigate. (Id. f 52.)
• The State of Georgia dismissed the charges
against Mr. Thorpe on October 20, 2016. (Id.
at 1i 51.)
• Finally. “[a]s a direct and proximate result of
Defendants’ actions or failure to act. Thorpe
has been emotionally. physically, and
financially damaged." (Id. r 60)

II.

Standard of Review on Motion to Dismiss

This Court may dismiss a pleading for “failure to
state a claim upon which relief can be granted.” Fed.
R. Civ. P. 12(b)(6). A pleading fails to state a claim if
it does not contain allegations that support recovery
16a

under any recognizable legal theory. 5 CHARLES
ALAN WRIGHT & ARTHUR R. MILLER, FEDERAL
4
PRACTICE & PROCEDURE § 1216 (3d ed. 2002); see
also Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009).
Generally, notice pleading is all that is required for a
valid complaint. See Lombard's, Inc. u. Prince Mfg.,
Inc.. 753 F.2d 974. 975 (11th Cir.1985), cert, denied,
474 U.S. 1082 (1986). Under notice pleading, the
plaintiff need only give the defendant fair notice of the
plaintiffs claim and the grounds upon which it rests.
See Erickson u. Pctrdus. 551 U.S. 89. 93 (2007) (citing
Bell Atlantic v. Twombly, 550 U.S. 544, 555 (2007)).
In ruling on a motion to dismiss, the court must
accept the facts pleaded in the complaint as true and
construe them in the light most favorable to the
plaintiff. See Hill u. White. 321 F.3d 1334, 1335
(11th Cir. 2003): see also Sanjuan v. American Bd. of
Psychiatry and Neurology, Inc., 40 F.3d 247. 251 (7th
Cir. 1994) (noting that at the pleading stage, the
plaintiff “receives the benefit of imagination").
A complaint should be dismissed under Rule 12(h)(6)
only where it appears that the facts alleged fail to
state a “plausible" claim for relief. Twombly, 550 U.S.
at 555-556; Fed. R. Civ. P. 12(b)(6). A complaint may
survive a motion to dismiss for failure to state a claim,
however, even if it is “improbable" that a plaintiff
would be able to prove those facts and even if the
possibility of recovery is extremely “remote and
unlikely. Twombly, 550 U.S. at 556 (citations and
quotations omitted). A claim is plausible where the
plaintiff alleges factual content that “allows the court
to draw the reasonable inference that the defendant
17a

is liable for the misconduct alleged." Ashcroft v. Iqbal,
556 U.S. at 678. The plausibility standard requires
that, a plaintiff allege sufficient facts "to raise a
reasonable

expectation that discovery will reveal evidence" that
supports the plaintiffs claim. Tivombly, 550 U.S. at
556. A Plaintiff is not required to provide "detailed
factual allegations" to survive dismissal, but the
"obligation to provide the ‘grounds' of his
‘entitle[ment] to relief requires more than labels and
conclusions, and a formulaic recitation of the
elements of a cause of action will not do." Id. at 555.
The Court recognizes that Plaintiff is appearing pro
se. Thus, the Complaint is more leniently construed
and "held to less stringent standards than formal
pleadings drafted by lawyers.” Erickson u. Pardus.
551 U.S. 89, 94 (2007)
(citations and internal quotation marks omitted);
Tamienbaum v. United States. 148 F.3d 1262, 1263
(11th Cir. 1998). However, nothing in that leniency
excuses a plaintiff from compliance with threshold
requirements of the Federal Rules of Civil Procedure.
See Moon v. Newsome. 863 F.2d 835, 837 (11th Cir.
1998), cert, denied. 493 U.S. 863 (1989). Nor does this
leniency require or allow courts "to rewrite an
otherwise deficient pleading [by a pro se litigant] in
order to sustain an action.” G-JR Invs., Inc. v. Countv
of Escambia, Fla.. 132 F.3d 1359. 1369 (11th Cir.
1998).

18a

III. Discussion
A. Defendants Dumas, Jenkins, Boone, and
Connelly’s Motion to Dismiss. Defendants Dumas,
Jenkins, Boone, and Connelly seek dismissal of
Plaintiffs complaint pursuant to Fed. R. Civ. P.
12(b)(5) for insufficient service of process because
Defendants were served by mail.4

4 s

‘Service of process is a jurisdictional requirement: a
court lacks jurisdiction over the person of a defendant when
the defendant has not been served.” Pardazi v. Cullman Med.
Ctr., 896 F.2d 1313, 1317 (11th Cir. 1990). Thus, the Court
begins its inquiry here, as the Court cannot reach the merits of
the plaintiffs claims against improperly served defendants
unless and until those defendants are properly served or
service of process is waived. See Fed. R. Civ. P. 4(m); Jackson
v. Warden, FCC Coleman- USP. 259 F. App’x 181, 183 (11th
Cir. 2007).
The Court notes that Defendant Dumas also seeks
dismissal of Plaintiffs Amended Complaint because
Plaintiffs claims are barred by the two-year statute of
limitations. Defendants Jenkins, Boone, and Connelly seek
dismissal on the following additional grounds: (1) as
prosecutors they are entitled to absolute immunity; (2)
Plaintiffs claims are barred by the statute of limitations; (3)

19a

Plaintiff has failed to properly serve Defendants as
required under the Federal Rules of Civil Procedure.
Under Fed. R. Civ. P. 4(e). an individual must be
served either: (1) "following state law ... in the state
where the district court is located or where service is
made" or doing one of the following: (A) “delivering a
copy of the summons and of the complaint to the
individual personally: (B) leaving a copy of each at the
individual's dwelling or usual place of abode with
someone of suitable age and discretion who resides
there: or (C) delivering a copy of each to an agent
authorized by appointment or by law to receive
service of process." Fed. R.
Civ. P. 4(e)(l)-(2). The Eleventh Circuit has held that
Rule 4(e) requires personal service on an individual
absent waiver. Natty v. Morgan. 615 F. App'x 938,
939 (11th Cir. 2015) (finding that service was
insufficient because [the plaintiff] simply mailed
papers to the defendants*’). In Natty, the Court upheld
dismissal of a pro se action on grounds of imperfect
service where the plaintiffs only attempt at service
was sending by mail a copy of the papers to the
defendants. Id. The Federal Rules of Civil Procedure
permit service "following state law for serving a
summons in an action brought in courts of general
jurisdiction in the state where the district court is
located.' Fed. R. Civ. P. 4(e)(1). Thus, the Court must
also examine whether Plaintiff complied with Georgia
law governing service of process. See Usatorres v.
Marina Mercante Nicaraguenses, S.A.. 768 F.2d 1285,
1286 n. 1 (11th Cir. 1985); Fed. R. Civ. P. 4(e)(1)'

they have absolute immunity from the state law claims: and
(4) Plaintiff has failed to allege facts that establish a claim
for malicious prosecution.

20a

Under Georgia law. a plaintiff may serve an
individual defendant "bv leaving copies thereof at the
defendant’s dwelling house or usual place of abode
with some person of suitable age and discretion then
residing therein, or by delivering a copy of the
summons and complaint to an agent authorized by
appointment or by law to receive service of process.”
O.C.G.A. § 9-11-4 (e)(7).
On September 28. 2018.
Plaintiff filed a Proof of Service with the Court
purporting to show that the Complaint was "served
via certified mail' to George Jenkins on August 14.
2018. to Lauren Boone on August 15, 2018, to Jeffrey
Connelly on August 15. 2018. Fani Willis on August
14. 2018. Ural Glanville on August. 14. 2018. to
Atlanta Police Department Headquarters for Dexter
Dumas on August 14. 2018. and to Atlanta Police
Department Zone 1 for Dexter Dumas on August 21.
2018. (Doc. 17.) Both Federal and Georgia law on
service of process require "personal service” - service
by hand delivery of the complaint and summons.5 For
this reason. Plaintiffs attempted service by mail is
insufficient under both the Fed. R. Civ. P. 4 and
' However, neither Federal Rule 1 nor O.C.G.A. § ti­
ll-1 permit a party to the action to personally serve process
of the complaint and summons. See Fed. R. Civ. P. 4
(providing that ”[a]ny person who is at least 18 years old and
not a party may serve a summons and complaint." or "[a]t the
plaintiffs request, the court may order that service be made
by a United States marshal or deputy marshal or by a person
specially appointed by the court"): O.C.G.A. § 9-11-4
(providing that process shall be served by: (1) the sheriffs
office of the county where the action is brought or where the
defendant is found: (2) the marshal or sheriff of the court: (3)
any U.S. citizen specially appointed by the court for that
purpose: (4) a person 18 years or older who is not a party and
has been appointed by the court to serve process: or (5) a
certified process server).

21a

O.C.G.A. § 9-11-4 (e)(7). Accordingly, Defendants
Dumas, Jenkins, Boone, and Connelly’s Motions to
Dismiss (Docs. 17, 22) are GRANTED and Plaintiffs
claim against those Defendants are DISMISSED
without prejudice

Motion to Dismiss of Defendants Judge
Glanville and Willis Defendants Glanville and
Willis seek dismissal of Plaintiffs complaint pursuant
to Fed. R. Civ. P. 12(b)(1) and (6) because Defendants
contend, they are entitled to absolute and Eleventh
Amendment immunity.6
Plaintiff has sued
6 Defendants Glanville and Willis also seek dismissal
based on the following grounds: (1) Plaintiffs claims against
Defendant Glanville are barred by the statute of limitations;
(2) pursuant to Fed. R. Civ. P. 12(b)(6), Plaintiff has failed to
state a claim upon which relief may be granted; (3) Defendants
are entitled to qualified immunity; (4) Plaintiffs state law tort
claims are barred; and (5) the Georgia Tort Claims Act does
not permit punitive damages.

22a

Defendants Glanville and Willis as individuals. (See
Am. Compl.) However, it is unclear to the Court
whether Plaintiff is suing these Defendants in their
individual and/or official capacities. As Defendants
sought dismissal on both absolute and Eleventh
Amendment immunity, for the purposes of ruling on
this Motion to Dismiss, the Court will construe both
possibilities. 1.
Individual
Capacity
Claims
Defendants Glanville and Willis are entitled to
absolute immunity from liability for Plaintiffs alleged
claims asserted against them in their individual
capacities.
A. Defendant Glanville : “Judges are
entitled to absolute judicial immunity from damages
for those acts taken while they are acting in their
judicial capacity unless they acted in the clear
absence of all jurisdiction' over the subject matter.
Bolin v. Story, 225 F.3d 1234, 1239 (2000) (citing
Stump v. Sparkman. 435 U.S. 349, 356-57 (1978))
(emphasis added). “This immunity applies even when
the judge’s acts are in error, malicious, or were in
excess of his or her jurisdiction.” Id. Plaintiff here
alleges that Defendant Glanville "stepped outside the
bounds of his jurisdiction by violating an American
Citizens [sic] Right to have his attorney argue to [sic]
why the bond modification should occur.” (Am.
Compl.
87.) Plaintiff argues that by "fail[ing] to
provide Thorpe with a timely bond hearing in regard
to the removal of Thorpe’s ankle monitor,’’ Defendant
Glanville violated Thoi'pe’s constitutional rights. (Id.
* 89-90.) As the Supreme Court explained in Stump
v. Sparktitan, “the scope of the judge’s jurisdiction
must be construed broadly where the issue is the
immunity of the judge, and a judge does not act in
“clear absence of all jurisdiction” if “at the time he
took the challenged action he had jurisdiction over the
23a

subject matter before him.” 43o U.S. at 356.7 In other
words, if the court has constitutional or statutory

7 The Court makes a distinction between
"excess of jurisdiction” and the “clear absence of all
jurisdiction over the subject matter":
Where there is clearly no
jurisdiction over the subject-matter any
authority exercised is a usurped
authority, and for the exercise of such
authority, when the want of jurisdiction
is known to the judge, no excuse is
permissible. But where jurisdiction over
the subject-matter is invested by law in
the judge, or in the court which he
holds, the manner and extent in which
the jurisdiction shall be exercised are
generally as much questions for his
determination as any other questions
involved in the case, although upon the
correctness of his determination in
these particulars the validity of his
judgments may depend.
Stump v. Sparkman, 435 U.S. at 356. n. 6
(citing Bradley v. Fisher. 80 U.S. 335, 351-52
(1872)). The Court explained this distinction with
the following example: "if a probate judge, with
jurisdiction over only wills and estates, should try
a criminal case, he would be acting in the clear
absence of jurisdiction and would not be immune
from liability for his action: on the other hand, if a
judge of a criminal court should convict a
defendant of a nonexistent crime, he would merely
be acting in excess of his jurisdiction and would be
immune.” Id., n. 7.
24a

jurisdiction over the subject matter of the proceeding,
"[a] judge is absolutely immune from liability for his
judicial acts even if his exercise of authority is flawed
by the commission of grave procedural errors.” Id. at
359: Harris v. Deveaux. 780 F.2d 911, 916 (11th Cir.
1986) (holding that the test regarding whether a
judge acted in the "clear absence of all jurisdiction . .
. is only satisfied if a judge completely lacks subject
matter jurisdiction”),
O.C.G.A. § 15-6-8 provides
that ”[t]he superior courts have authority: [t]o
exercise original, exclusive, or concurrent jurisdiction,
as the case may be. of all causes, both civil and
criminal." Such jurisdiction includes felony offenses
of armed robbery, aggravated assault, and battery.
There is no question that Defendant Glanville was
acting in his judicial capacity in presiding over the
proceeding involving the state’s prosecution of
Plaintiff and that the court properly exercised
jurisdiction in that matter. Defendant Glanville is
therefore entitled to absolute judicial immunity from
Plaintiff s suit under federal and state law. See Dykes
v. Hosemann. 776 F.2d 942. 946-47 (11th Cii\ 1985)
(en banc) (finding judge was entitled to absolute
immunity from suit where it was clear that he had
subject matter jurisdiction over the underlying
dependency proceeding where state statute provided
that "[t]he circuit court shall have exclusive original
jurisdiction of proceedings in which a child is alleged
to be dependent," and that question whether he may
have incorrectly concluded that minor actually was
dependent did not affect the fact that it was within his
power to make that determination); Robinson v.
Becker, 595 S.E.2d 319, 321 (Ga. Ct. App. 2004)
(finding that superior court judge engaged in a
judicial act in banning plaintiff from courthouse
25a

during criminal trial and stating that ‘^judicial
immunity protects judges against state law claims, as
well as civil rights actions brought under 42 U.S.C. §
1983”): Maddox v. Prescott. 449 S.E.2d 163. 165 (Ga.
Ct. App. 1994) (“Our courts have consistently held
that judges are immune from liability in civil actions
for acts performed in their judicial capacity.”)
Accordingly, the Court GRANTS Defendant
Glanville's Motion to Dismiss [Doc. 19] Plaintiffs
claims against him in his individual capacity, b.
Defendant Willis Prosecutors are also entitled to
absolute immunity from damages for all actions they
take associated with the judicial process as an
advocate for the government, including those taken in
initiating a prosecution, presenting the government’s
case, and all appearances before the court. See Imbler
v. Pachtman. 424 U.S. 409. 430-31 (1976); Hart v.
Hodges, 587 F.3d 1288. 1295 (11th Cir. 2009) (citing
Imbler); Bolin, 225 F.3d at 1242 (same); Rowe v. City
of Fort Lauderdale. 279 F.3d 1271. 1279 (11th Cir
2002). Prosecutors even have absolute immunity
when ‘‘filing an information without investigation,
filing charges without jurisdiction [or probable cause],
filing a baseless detainer, offering perjured testimony,
suppressing exculpatory evidence, [and] refusing to
investigate . . .” Hart v. Hodges, 587 F.3d at 1295
(quoting Henzel v. Gerstein. 608 F.2d 654, 657 (5th
Cir. 1979)); Holt v. Crist. 233 F. App’x 900, 903 (11th
Cir. 2007) (stating that prosecutorial immunity
“extends to charging a defendant without probable
cause’).
"While not undertaken literally at the
direction of the court, these activities are so
intimately associated with the judicial phase of the
criminal process as to cloak the prosecutors with
absolute immunity from suits for damages.” Hart,
26a

r

587 F.3d at 1295 (quoting Allen v. Thompson, 815
F.2d 1433 (11th Cir. 1987); Imbler, 424 U.S. at 430
(holding absolute immunity was available for
prosecutor’s activities in initiating a prosecution and
in presenting the state’s case because they were
“intimately associated with the judicial phase of the
criminal process”). District attorneys are similarly
entitled to prosecutorial immunity for actions arising
under state law.

13
Pursuant to Art. VI, Sec. VIII, Par. 1(e)
of the Georgia Constitution of 1983,
district attorneys have immunity from
private actions “arising from the
performance of their duties.” The
rationale behind this immunity is that
prosecutors, like judges, should be free
to make decisions properly within the
27a

purview of their official duties without
being influenced by the shadow of
liability. Therefore, a district attorney is
protected by the same immunity in civil
cases that is applicable to judges,
provided that his acts are within the
of his
scope
jurisdiction.8 - The
determining factor appears to be
whether the act or omission is
“intimately associated with the judicial
phase of the criminal process."
Robbins u. Lanier. 402 S.E.2d 342, 343-44 (Ga. Ct.
App. 1991) (citing Holsey v. Hind. 377 S.E.2d 200, 201
(Ga. Ct. App. 1988) and Smith v. Hancock. 256 S.E.2d
627 (Ga. Ct. App. 1979)) (internal quotations
omitted).
A district attorney’s initiation and
prosecution of a case involving criminal charges is an
act “intimately associated with the judicial phase of
the criminal process." Id.: see also Holsey v.
Hind. 377 S.E.2d 200. 201 (Ga. Ct. App. 1988);
Kadivar v. Stone. 804 F.2d 635, 637 (11th Cir. 1986).
Defendant Willis is therefore entitled to absolute
prosecutorial immunity from Plaintiffs suit under
federal and state law. Accordingly, the Court
GRANTS Defendant Willis’s Motion to Dismiss [Doc.

8 In Georgia's “criminal justice system, the district
attorney represents the people of the state in prosecuting
individuals who have been charged with violating [the] state's
criminal laws.” State v. Wooten. 543 S.E.2d 721. 723 (Ga.
2001). The district attorney “has broad discretion in making
decisions prior to trial about who to prosecute, what charges to
bring, and which sentence to seek.” Id.

28a

19] Plaintiffs claims against her in her individual
capacity.

2.

Official Capacity Claims
Because a suit against a party in his official capacity
is considered a suit against the government entity he
or she represents, Defendants Glanville and
Willis are entitled to Eleventh Amendment immunity
from liability to the extent
Plaintiff alleges claims asserted against them in their
official capacities. See Kentucky v. Graham, 473 U.S.
159, 165-69 (1985) C'[A]bsent [a] waiver by the State
or valid congressional override, the Eleventh
Amendment bars a damages action against a State in
federal court. This bar remains in effect when State
officials are sued for damages in their official capacity
. . . because ... a judgment against a public servant
‘in his official capacity’ imposes liability on the entity
that he represents.") (internal quotations and
citations omitted).
a.
Defendant Glanville
The Georgia constitution vests state court
judges with the judicial power of the State. Ga. Const,
art. VI, § I, % I. A qualified judge may therefore
exercise the state's “judicial power in any court upon
the request and with the consent of the judges of that
court and of the judge’s own court under rules
prescribed by law." Ga. Const, art. VI, § 1, III. As
Defendant Glanville is a state official, he is entitled to
Eleventh Amendment immunity to the extent
Plaintiff has asserted damages claims against him in
his official capacity. See Simmons v. Conger, 86 F.3d

29a

1080, 1085 (11th Cir. 1996) ' (applying Eleventh
Amendment immunity to judge sued in
official capacity).

15
Accordingly, the Court GRANTS Defendant
Glanville’s Motion to Dismiss
[Doc. 19] Plaintiffs claims against him in his official
capacity.
Defendant Willis
b.
The Eleventh Circuit has held that a Georgia district
attorney is a state official — rather than a county
official — when he is “exercising his discretion in
prosecutorial decisions.” Owens u. Fulton County, 877
F.2d 947, 950-51 (11th Cir.
1989); Neville v. Classic Gardens, 141 F. Supp. 2d
1377, 1382 (S.D. Ga. 2001)
(“Engaging in a prosecutorial function is the act of a
State, not a county, official.”).
McClendon v. May, 37 F.Supp.2d 1371,1375-76 (S.D.
Ga. 1999), affd, 212 F.3d 599 (11th Cir. 2000); see also
State v, Wooten, 543 S.E.2d 721, 723 (Ga. 2001) (“the
district attorney represents the people of the state in
prosecuting individuals who have been charged with
violating [the] state’s criminal laws”).
Thus, to the degree that Plaintiff seeks to hold
Defendant Willis liable in her official capacity for acts
30a

r

within the realm of her prosecutorial discretion.
Willis is considered a State official entitled to
Eleventh Amendment immunity. Neville, 141 F.
Supp. 2d at 1382 ("The Eleventh Amendment bars
federal courts from hearing pendant [S]tate [law]
claims for damages brought against State officers who
are sued in their official capacities.”); McClendon v.
May. 37 F. Supp. 2d at 1375-76 (S.D. Ga. 1999)
(finding that "for all his acts undertaken within the
realm of his prosecutorial role, [the] district attorney
[] acted as a state official [and] is entitled to Eleventh
Amendment immunity on his official capacity claims
for his conduct before the grand jurv’'). aff’d. 212 F.3d
599 (11th Cir. 2000); Abiffv. Slaton, 806 F.
16
Supp. 993. 996-97 (N.D. Ga. 1992) (holding that
county prosecutors enjoyed official capacity, Eleventh
Amendment immunity from § 1983 claim), aff’d, 3
F.3d 443 (11th Cir. 1993).
Accordingly, the Court GRANTS Defendant Willis's
Motion to Dismiss
[Doc. 19] Plaintiffs claims against her in her official
capacity.
III.
Conclusion
For the foregoing reasons, as to service deficiencies,
the Court GRANTS without prejudice the Motions
to Dismiss of Defendants Dumas, Jenkins, Boone, and
Connelly [Docs. 16, 22]. Dismissal, without prejudice,
while having the effect of discontinuing this federal
action, will enable Plaintiff, should he choose to do so,
to refile his claims and properly serve Defendants
31a

r

Dumas, Jenkins, Boone, and Connelly. However,
Defendants Jenkins, Boone, and Connelly are likely
also entitled to immunity; and the claims against
Defendant Dumas are likely barred by the applicable
statute of limitations. Thus, the Court cautions that
refiling may be futile, i.e. that these claims, if refiled,
may well be dismissed due to these defenses.
The Court GRANTS with prejudice the Motion to
Dismiss of Defendants
Glanville and Willis [Doc. 19]: and DENIES AS
MOOT Plaintiff s Motion [Doc.
24] and Defendants Glanville and Willis’s Motion to
File Excess Pages and Stay
Discovery [Docs. 18. 20], The Clerk is DIRECTED to
close the case.
IT IS SO ORDERED this 8th day of
November 2018.

c

A"

'Kj''J

A;

J

AMY TC$>feNBERb

u

UNITED STATES DISTRICT JUDGE

32a

Appendix C
Case: 19-10089 Date Filed: 10/28/2019 Page: 1 of 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-10089-HH

David Thorpe,
Plaintiff-Appellant
Versus
DEXTER DUMAS, an individual,
GEORGE JENKINS, an individual,
LAUREN BOONE, an individual,
JEFFREY S. CONNELLY, an individual,
FANI WILLIS, an individual, et al.,

Defendants-Appellees.

33a

r

Appeal from the United States District Court for
the Northern District of Georgia

BEFORE: ED CARNES, Chief Judge, WILLIAM
PRYOR, and GRANT, Circuit Judges.

PER CURIAM:
The Petition for Panel Rehearing filed by David
Thorpe is DENTED.
IFORTffECO'URT:

CHIEF JUDGE
OR D- -! i

34a

r

Appendix D
Case 1:18 — cv-03817-AT Document 12 Filed 9/19/18
Page 1 of 37
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
FILED
IN
CLERK’S
U.S.D.C - ATLANTA

OFFICE

Sep 19, 2018
JAMES N. HATTEN, CLERK
By “s/” Deputy Clerk

DAVID THORPE, an individual,
Civil Action File
Plaintiff,

No. 1:18-CV-3817AT

v.
DEXTER DUMAS, an individual, GEORGE
JENKINS, an individual, LAUREN BOONE,
an individual, JEFFREY S. CONNELLY, an
individual, FANI WILLIS, an individual, and
URAL GLANVILLE, an individual,
Defendants.

35a

FIRST AMENDED COMPLAINT

COMES NOW David Thorpe, the plaintiff in
the above captioned matter and pursuant to Federal
Rule of Civil Procedure 15-1 (b), respectfully files this
the first amended complaint. The plaintiff seeks to
amend the original complaint to assist and clarify the
statement of claims for the Defendants’ counsel, (a)
Please note the removal of FCDA an entity from the
complaint (b) please note the amendment in the
claims (counts) section (c) small grammatical
corrections throughout.

36a

Appendix E
Case l:18-cv-03817-AT Document 24 filed
10/23/2018 page 1 or 7
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
FILED IN CLERKS OFFICE
U.S.D.C. - ATLANTA
Oct 23, 2018
JAMES N. HATTEN, CLERK
“sr by Deputy Clerk
DAVID THORPE, an individual,
Plaintiff,

Civil Action File

v.
DEXTER DUMAS, an individual, GEORGE
JENKINS, an individual, LAUREN BOONE, an
individual, JEFFREY S. CONNELLY, an
individual, FANI WILLIS, an individual, and
URAL GLANVILLE, an individual,
Defendants.

MOTION FOR ENTRY OF DEFAULT
Plaintiff David Thorpe requests that the clerk
of court enter default against defendants Lauren
Boone, Dexter Dumas, Jeffrey Connelly, and George
37a

Jenkins pursuant to Federal Rule of Civil Procedure
55(a). In support of this request plaintiff relies upon
the record in this case and the affidavit submitted
herein.
Dated this 23rd

day of

October

, 2018.

____ “s/” David Thorpe
David Thorpe, Plaintiff

38a

r

10/23/2018 page 2 or 7
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
FILED IN CLERK’S OFFICE
U.S.D.C. - ATLANTA
OCT 23, 2018
JAMES N. HATTEN, CLERK
“sr by DEPUTY CLERK
DAVID THORPE, an individual,
Civil Action File
Plaintiff,
No. 1:18-CV-3817

v.

DEXTER DUMAS, an individual, GEORGE
JENKINS, an individual, LAUREN BOONE, an
individual, JEFFREYS. CONNELLY, an
individual, FANI WILLIS, an individual, and
URAL GLANVILLE, an individual,
Defendants.

CERTIFICATE OF SERVICE
I, David Thorpe, hereby certify that I am
employed by Ultra Group and am of such age and
discretion as to be competent to serve papers. I
further certify that on this date I caused a copy of the
Motion for Entry of Default, Affidavit in Support of
Motion for Entry of Default and proposed Entry of
39a

r
Default to be placed in a postage-paid envelope
addressed to the defendants, at the addresses stated
below, which are the last known addresses of said
defendants, and deposited said envelopes in the
United States mail.
Addressee: Name(s) and address(es) of defendant(s).
Staci J. Miller, 55 Trinity Avenue S.W Suite 5000,
Atlanta, GA 30303 (Dexter Dumas)
Nancy L. Rowen, 141 Pryor Street Suite 4038,
Atlanta, GA 30303 (Lauren Boone, George Jenkins
and Jeffrey Connelly)
Dated this

23rd day of

October

, 2018

V* DAVID THORPE

40a

f
Case l:18-cv-03817-AT Document 24 filed
10/23/2018 page 3 or 7
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
FILED IN CLERKS OFFICE
U.S.D.C - ATLANTA
OCT. 23, 2018
JAMES N. HATTEN. CLERK
“sr by DEPUTY CLERK
DAVID THORPE, an individual.
Civil Action File
Plaintiff.
v.

No. 1:18-CV-3817

DEXTER DUMAS, an individual. GEORGE
JENKINS, an individual, LAUREN BOONE, an
individual. JEFFREY S. CONNELLY, an
individual. FANI WILLIS, an individual, and
URAL GLANVILLE. an individual.
Defendants.

ENTRY7 OF DEFAULT
Plaintiff, David Thorpe, requests that the clerk of
court enter default against defendants Lauren Boone,
Dexter Dumas, Jeffrey Connelly, and George Jenkins
pursuant to Federal Rule of Civil Procedure 55(a). It
is appearing from the record that defendants have
failed to appear, plead or otherwise defend, the
default of defendants Lauren Boone, Dexter Dumas,
Jeffrey Connelly, and George Jenkins is hereby
41a

r
entered pursuant to Federal Rule of Civil Procedure
55(a).
Dated this

day of

2018.

James N. Hatten, Clerk of Court

42a

f

Case l:18-cv-03817-AT Document 24 filed
10/23/2018 page 4 of 7
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
FILED IN CLERK’S OFFICE
U.S.D.C - ATLANTA
Oct 23, 2018
JAMES N. HATTEN, CLERK
“sr By DEPUTY CLERK
DAVID THORPE, an individual,
Plaintiff,

Civil Action File

v.

No. 1:18-CV-3817
DEXTER DUMAS, an individual, GEORGE
JENKINS, an individual, LAUREN BOONE, an
individual, JEFFREY S. CONNELLY, an
individual, FANI WILLIS, an individual, and
URAL GLANVILLE, an individual,
Defendants.

AFFIDAVIT IN SUPPORT OF MOTION
FOR ENTRY OF DEFAULT
I, David Thorpe, being duly sworn, state as
follows:
1. I am the plaintiff in the above-entitled
action, and I am familiar
with the file, records and pleadings in this
matter.
43a

r
Case l:18-cv-03817-AT Document 24 filed
10/23/2018 page 5 or 7
2. The summons and complaint were filed on
August 10, 2018 and an amended complaint
September 19. 2018.
3. Defendant George Jenkins was served with
a copy of the summons and complaint on
August 14. 2018. as reflected on the docket
sheet by the proof of service filed on September
19, 2018. Defendants Lauren Boone and
Jeffrey Connelly were served with a copy of the
summons and complaint on August 15. 2018. as
reflected on the docket sheet by the proof of
service filed on September 19. 2018. Defendant
Dexter Dumas was served with a copy of the
summons and complaint on August 19, 2018, as
reflected on the docket sheet by the proof of
service filed on September 19, 2018.
On the amended complaint Defendants
through his attorney Dexter Dumas (Staci
Miller), was served with a copy of the summons
and complaint on September 24. 2018. Lauren
Boone. Jeffrey Connelly, and George Jenkins
(Nancy Rowen) were served with a copy of the
summons and complaint on October 3, 2018.
4. An answer to the complaint for Dexter
Dumas was due on October 9, 2018 and Lauren
Boone, Jeffrey Connelly and George Jenkins
was due on October 18. 2018.
5. Defendants have failed to appear, plead or
otherwise defend within the
time allowed and, therefore, are now in default.
6. Plaintiff requests that the clerk of court
enter default against the defendants.
44a

r
‘sf David Thorpe
David Thorpe, Plaintiff
Sworn to and subscribed before
me this 22nd dav of October . 2018.
PETER F WALTERS
” s/” Peter Walters
NOTARY PUBLIC
Notary Public EXP. FEB. 26, 2021
My Commission Expires: February 26. 2021
DEKALB COUNTY, GA

45a

